Report No. DODIG-2012-054                 February 23, 2012





   Marine Corps Transition to Joint Region Marianas and 

               Other Joint Basing Concerns

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      Attn: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
AAFB                          Andersen Air Force Base
BRAC                          Base Realignment and Closure
COLS                          Common Output Level Standards
CPVF                          Cost and Performance Visibility Framework
ICC                           Installations Capabilities Council
JBIG                          Joint Basing Implementation Guidance
JBPHH                         Joint Base Pearl Harbor−Hickam
JRM                           Joint Region Marianas
OSD                           Office of the Secretary of Defense
                                INSPECTOR GENERAL 

                              DEPARTMENT OF DEFENSE 

                              4800 MARK CENTER DRIVE 

                           ALEXANDRIA, VIRGINIA 22350-1500 




                                                                        February 23, 2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
              NAVAL INSPECTOR GENERAL

SUBJECT: Marine Corps Transition to Joint Region Marianas and Other Joint Basing
          Concerns (Report No. DODIG-2012-054)

We are providing this report for review and comment. We determined that DoD
adequately implemented the joint basing program at Joint Base Pearl Harbor-Hickam and
Joint Region Marianas; however, improvements to the process are still needed. We
considered management comments from the Office of the Under Secretary of Defense for
Personnel and Readiness and the Navy from the Director, Joint Guam Program Office
through the Office of the Assistant Secretary for Energy, Installations, and Environment
on a draft report when preparing the final repOlt. The Deputy Under Secretary of
Defense for Installations and Environment did not respond to the draft report.

DoD Dil'ective 7650.3 requires that reconmlendations be resolved promptly. We require
comments from the Deputy Under Secretary of Defense for Installations and
Environment on Recommendation A.I. The Department of the Navy comments on
Recommendation A.2.b, A.2.c, and B.l were partially responsive. As a result of
management comments, we redirected Recommendation A.2 to the Deputy Chief of
Naval Operations, Director, Shore Readiness. Therefore, we request additional
comments by March 26, 2012.

If possible, send a pOltable document format (.pdf) file containing your comments to
audacm@dodig.mil. POltable document format copies of your comments must have the
actual signature of the authorizing official for your organization. We are unable to accept
the /Signed/ symbol in place of the actual signature. If you arrange to send classified
comments electronically, you must send them over the SECRET Internet Protocol Router
Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-9077 (DSN 664-9077).




                                           '2)

                                            '-- ac
                                              ac
                                                          1 '   ~J',

                                                                 ,? ,fL6iZJ.<VUk/iJ
                                                       :2e<4U'.. /
                                                   line L. Wicecarver
                                             ASSe Inspector General
                                             Acquisition and Contract Management
Report No. DODIG-2012-054 (Project No. D2011-D000CG-0145.000)                 February 23, 2012


               Results in Brief: Marine Corps Transition to
               Joint Region Marianas and Other Joint
               Basing Concerns
                                                         Environment revise installation support
What We Did                                              standards to better reflect mission needs and
Section 2835 of the Fiscal Year 2010 National            issue guidance on reporting joint basing results
Defense Authorization Act requires oversight of          at joint bases. We recommend that the
the Marine Corps relocation to Guam. Our                 Commander, Navy Installations Command,
objective was to determine whether the joint             allow joint bases to deviate from Service-
bases adhered to the intent of the 2005 Base             specific policy so that best practices can be
Realignment and Closure recommendation,                  developed, establish guidelines for conducting
Joint Basing Implementation Guidance, and                joint inspections at the Navy-led joint bases, and
subsequent guidance related to the Marine                develop an equitable method to distribute
Corps relocation to Guam.                                Marine Corps Exchange profits at Joint Region
                                                         Marianas. We recommend that the Commander,
What We Found                                            Joint Region Marianas, task the Comptroller
DoD adequately implemented the joint basing              with providing detailed support to the Marine
program at Joint Base Pearl Harbor–Hickam and            Corps regarding the transfer of funds and
Joint Region Marianas; however, we identified            develop specific policy to assist the Marine
needed improvements to the process. Joint                Corps regarding how installation support will be
Region Marianas and Joint Base Pearl Harbor–             provided on Future Marine Corps Base Guam.
Hickam encountered difficulties developing
efficient processes because levels of installation       Management Comments and
support for joint bases were above levels at             Our Response
stand-alone bases and did not allow for other            The Director, Joint Guam Program Office,
methods to provide support or always align with          through the Office of the Assistant Secretary for
the urgency of warfighter’s needs; commanders            Energy, Installations, and Environment provided
did not have full authority to implement best            consolidated comments for the Navy. The
policies; and Joint Region Marianas and Joint            Director partially agreed with our
Base Pearl Harbor–Hickam provided reports to             recommendations. We disagree with the
the Under Secretary of Defense for Installations         Director that guidance exists to determine who
and Environment, Basing Directorate, that may            is responsible for oversight at joint bases or that
be inconsistent. As a result, the joint bases can        the Navy should not issue guidance on
better optimize their use of the joint resources.        documenting methods for reporting joint basing
Additionally, the Marine Corps can improve the           results. We agree that a plan for a Marine Corps
transition process to Joint Region Marianas              Exchange is not needed at this time; however,
because increased planning and coordination are          the Navy should begin planning for this
needed in key transition areas. If Marine Corps          scenario. The Deputy Under Secretary of
concerns are not promptly addressed; readiness,          Defense for Installations and Environment did
resources, and quality of life may be affected           not comment on the draft report and we request
during the relocation to Guam.                           that he provides comments in response to this
What We Recommend                                        report by March 26, 2012. Please see the
                                                         recommendations table on the back of this page.
We recommend that the Deputy Under
Secretary of Defense for Installations and

                                                     i
Report No. DODIG-2012-054 (Project No. D2011-D000CG-0145.000)   February 23, 2012

Recommendations Table

        Management                 Recommendations        No Additional Comments
                                  Requiring Comment             Required
Deputy Under Secretary of                 A.1
Defense for Installations and
Environment
Deputy Chief of Naval                 A.2.b, A.2.c                A.2.a
Operation, Director, Shore
Readiness
Commander, Navy Installations                B.1
Command
Commander, Joint Region                                            B.2
Marianas

Please provide comments by March 26, 2012.




                                             ii
Table of Contents

Introduction	                                                               1      


      Objectives                                                            1      

      Background                                                            1      

      Review of Internal Controls                                           3


Finding A. JRM and JBPHH Can Better Optimize Joint Basing Efficiencies      4


      JRM and JBPHH were Adequately Implementing the Joint Basing Process   4

      COLS Revisions Could Better Serve the Warfighter and Result in More   5

         Efficient Operations 

      Joint Base Commanders Did Not Always Implement Best Practices         7

         Because of Service-Specific Policies 

      Reporting Joint Basing Results Should be Consistent and Complete      9

      Conclusion                                                            10         

      Recommendations, Management Comments, and Our Response                10 


Finding B. Marine Corps Guam Relocation Joint Basing Challenges             14 


      Improving the Marine Corps Transition to JRM                          14 

      Conclusion                                                            18         

      Management Comments on the Finding and Our Response                   18 

      Recommendations, Management Comments, and Our Response                18 


Appendices

      A. 	Scope and Methodology                                             21 

             Use of Computer-Processed Data                                 21 

             Prior Coverage                                                 21 

      B. Joint Bases 	                                                      23 

      C. Installation Support Functions 	                                   24 


Management Comments

      Joint Guam Program Office Comments                                    25 

      Office of the Under Secretary of Defense for Personnel and 

         Readiness Comments                                                 28 

Introduction
Objectives
We performed this audit as part of Section 2835 of the Fiscal Year 2010 National
Defense Authorization Act requiring oversight of the Marine Corps relocation to Guam.
Our objective was to determine whether the joint bases adhered to the intent of the 2005
Base Realignment and Closure (BRAC) recommendation, Joint Basing Implementation
Guidance (JBIG), and subsequent guidance related to the Marine Corps relocation to
Guam. See Appendix A for the scope and methodology and prior audit coverage related
to our audit objective.

Background
Section 2835 of the Fiscal Year 2010 National Defense
Authorization Act
Section 2835 of the National Defense Authorization Act for Fiscal Year 2010 designates
the Inspector General of the Department of Defense as the Chairman of the Interagency
Coordination Group of Inspectors General for Guam Realignment. Public Law 111-84,
“National Defense Authorization Act for Fiscal Year 2010,” October 28, 2009,
Section 2835, “Interagency Coordination Group of Inspectors General for Guam
Realignment,” requires the Interagency Coordination Group to conduct audits of
obligations and expenditures for the Guam realignment. The group is also responsible for
monitoring and reviewing construction and contracting activities for the relocation.

BRAC Recommendation and Joint Basing Implementation
The joint basing program is DoD’s effort to optimize installation support across the
Services and was established by 2005 BRAC recommendation number 146. The BRAC
recommendation combined 26 locations into 12 joint bases predicated on geographic
proximity. See Appendix B for a list of the joint bases. Although identifying efficiencies
was a consideration of the 2005 BRAC process, the mission capabilities and readiness
impact of the BRAC recommendations was the top priority. The BRAC Commission
also noted that DoD did not have Department-wide standards for installation support at
the time of its report.

The Deputy Secretary of Defense issued the initial JBIG on January 22, 2008, to establish
a comprehensive framework of joint basing procedures. By issuing the JBIG, the Deputy
Secretary of Defense directed various other DoD Components to issue supplemental
guidance in their respective areas to support the JBIG. Additionally, each joint base was
responsible for developing a memorandum of agreement between all components that
guided the implementation process at each joint base.




                                            1

Joint bases provide standard levels of support for 49 installation support functions
identified in the JBIG such as: grounds maintenance, legal support, emergency
management, and utilities for their supported components rather than requiring each
component to provide the support. See Appendix C for a full list of the 49 installation
support functions.

The Installations Capabilities Council (ICC), a council consisting of DoD Senior
Executive Leadership and members from each Military Department, approved the joint
basing support standard levels known as Common Output Level Standards (COLS). The
Deputy Under Secretary of Defense for Installations and Environment is responsible for
ensuring that installation assets and services are available when and where needed. The
Deputy Under Secretary of Defense for Installation and Environment established the
Office of the Secretary of Defense Basing Directorate (OSD Basing Directorate) to
manage the BRAC recommendations and the joint basing implementation process. To
determine how effectively the joint bases operate and meet the COLS, each joint base
submits a Cost and Performance Visibility Framework (CPVF) report to the Office of the
Secretary of Defense on a quarterly basis. Additionally, the OSD Basing Directorate
routinely conducts conferences with joint basing leaders and issues newsletters to share
ideas, discuss potential COLS revisions, and disseminate information regarding the joint
basing process.

DoD established a phased approach to implement joint basing. DoD established five
joint bases on October 1, 2009, and seven on October 1, 2010.* Prior to establishment,
each base completed a trial period of approximately 8 months, known as the initial
operating capability, in which the installations combined to provide the support but could
maintain separate resource obligations. During the initial phase, each base prepared for
the transfer of personnel and repositioning of resources. Before becoming fully
operational, the budgeting authority transferred from the individual Services to the lead
Service at each joint base. The JBIG and supplemental guidance stated which support
and resources would transfer to the joint base, and that mission-related functions would
remain with the existing Services. In accordance with the JBIG; civilians, funds,
contracts, and real property transferred to the lead Service and were subject to the lead
Service’s policies and procedures, unless specified in other policy. Service members of
the supported Service did not transfer to the lead Service but could be embedded into the
joint base to accomplish the installation support as a way to provide the supported
components fair share of resources.

Marine Corps Relocation
In accordance with an October 2005 agreement between the U.S. Government and the
government of Japan, DoD is realigning about 8,000 Marines and 9,000 dependents from
Okinawa, Japan, to Guam. DoD established the Joint Guam Program Office to facilitate,


*
 Joint Region Marianas is a joint region, which varies slightly from the construct of a joint base. We use
the term “joint bases” to describe all installations under the joint basing process, including Joint Region
Marianas. We visited only Joint Region Marianas and Joint Base Pearl Harbor–Hickam during our audit
and are basing our report on findings at those locations.


                                                      2

manage, and execute the relocation and combining of Marine Corps assets into Joint
Region Marianas (JRM). As the relocation progresses, the Marine Corps plans to
establish Marine Corps Base Guam as a new installation under JRM. On July 1, 2010,
the Deputy Under Secretary of Defense for Installations and Environment revised the
JBIG to include the Marine Corps as part of the command structure of JRM. The Marine
Corps and JRM will develop agreements for the operation and maintenance of facilities
on Marine Corps Base Guam and the process to transition to Marine Corps Base Guam as
part of JRM.

A Marine Corps Forces − Pacific official requested we review seven concerns regarding
the Marine Corps transition to JRM. We discuss three of these concerns in Finding B.
We do not discuss who will be the hiring authority for the Marine Corps during
relocation because JRM does not plan to restrict the Marine Corps from hiring personnel
on Guam through its joint basing authority. Additionally, we do not discuss the
establishment of roles and responsibilities during the transition because adequate progress
is being made in this area. Finally, we do not discuss sharing of efficiencies or the cost-
sharing for the resources required by the Marine Corps because adequate guidance
already exists as part of the initial joint basing implementation process.

JRM
JRM is a joint region established in the first phase of joint basing on October 1, 2009.
JRM is led by the Navy and combined Naval Base Guam and Andersen Air Force Base
(AAFB). JRM will eventually include Marine Corps Base Guam when it is established
by the Marine Corps relocation and JRM may also include an Army Air Defense
Battalion consisting of about 600 active duty personnel and 900 dependents.

Joint Base Pearl Harbor−Hickam
Joint Base Pearl Harbor−Hickam (JBPHH) is a joint base established in the second phase
of joint basing on October 1, 2010. JBPHH is led by the Navy and combined Naval
Station Pearl Harbor, Hawaii, and Hickam Air Force Base, Hawaii. We judgmentally
included JBPHH in our review. JBPHH is similar to JRM because the Navy is the lead
Service supporting the Air Force. We examined both JRM and JBPHH during our audit
so that we could identify potential trends or best practices.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. JBPHH and JRM’s internal
controls over joint basing were effective as they applied to the audit objectives.




                                            3

Finding A. JRM and JBPHH Can Better
Optimize Joint Basing Efficiencies
JRM and JBPHH have effectively implemented the joint basing process, but COLS
development methodology, rigid policy, and inconsistent and incomplete reporting
procedures limited the potential efficiencies at the joint bases. JRM and JBPHH
encountered difficulties developing efficient processes because:
   	 ICC officials generally approved COLS by choosing the highest standard across
       the Services rather than a median range. Additionally, COLS did not allow for
       alternate methods to provide support, were not weighted based on urgency, or
       were not always tied to warfighter needs;
   	 Joint base commanders did not have full authority to combine and implement best
       practices of individual Services’ procedures and policies; and
   	 Joint base officials provided CPVF reports to the OSD Basing Directorate that
       may not report standard information across the joint bases, were in response to
       COLS that needed interpretation, did not reflect the COLS status on mission
       capabilities, and did not require that supporting documentation and other records
       be maintained.

As a result, JRM and JBPHH were not able to optimize their use of the combined joint
resources to better serve the warfighter.

JRM and JBPHH Were Adequately Implementing the
Joint Basing Process
DoD officials successfully implemented the BRAC joint basing recommendation. DoD
completed the joint basing implementation process when the seven Phase II bases became
fully operational on October 1, 2010. At the two joint bases we visited, we did not
identify any potential long-term impacts on the mission capabilities as a result of joint
basing. Additionally, OSD Basing Directorate personnel stated that they were not aware
of any mission setbacks at the other joint bases. Officials at the joint bases combined
similar contracts, combined maintenance efforts to avoid more costly future repairs, and
consolidated some office functions to become more efficient. However, JRM and
JBPHH encountered inefficiencies because:
        	 COLS were generally above the performance at stand-alone bases and
           therefore were more costly to obtain and did not always align with the
           warfighter’s needs,
         COLS requirements did not always allow for alternative methods of providing
           adequate installation support to be used,
         contracting officer warrants and professional certifications did not always
           transfer from the supported Service to the lead Service, and
         CPVF data submitted to the OSD Basing Directorate did not always reflect the
           COLS impact on mission capabilities.




                                           4

COLS Revisions Could Better Serve the Warfighter and
Result in More Efficient Operations
Both joint base personnel and the warfighters they support stated that COLS revisions are
necessary to promote more efficient operations. OSD officials originally developed the
COLS based on existing DoD standards and input from subject matter experts.
According to the personnel we interviewed, instead of setting COLS at a median level of
support, the ICC approved COLS that were generally the highest standard of any of the
Services. Additionally, joint base personnel developed other ways to provide installation
support that adequately served the mission but did not meet the COLS. The individual
COLS consider the performance of the joint base over a period of time and are not
weighted towards support that is higher priority based on circumstances. Finally, as of
October 2011, warfighters do not have an established method to provide feedback to the
OSD Basing Directorate regarding the support they receive from the joint base.

Joint COLS Development Methodology Higher Than Needed
Joint base personnel stated that the COLS at joint bases are higher than the standards at
stand-alone bases. Generally, OSD officials developed COLS based on existing DoD-
wide guidance, best business practices, or the experiences of subject matter experts.
However, in some situations, COLS were set at the highest level of support provided by
any individual Service or higher. In turn, the joint bases were sometimes required to
provide support that is above the level of support provided at stand-alone bases. For
example, for children and youth care, a joint base COLS required 35 percent of eligible
youths participating in a youth program, but the Army, Navy, and Air Force each
obtained about a 20 percent participation rate before joint basing and no set standards
were required by any Service.

Although establishing COLS in this manner preserved the quality of support at the joint
bases, it also potentially negatively impacted efficient support because the joint bases
must provide support across all COLS that may be at a higher standard than any Service’s
stand-alone bases. The joint base commanders expressed their concerns on this topic
                               during the February 2011 Joint Basing Program
    . . . the joint bases
                               Management Review but according to the after-action
   must provide support
                               report, no changes were made as a result because it was too
  across all COLS that is
                               soon to determine the full effectiveness of the joint basing
   at a higher standard
                               process. However, DoD revised some COLS as a result of
    than any Service’s
                               this Program Management Review. Many joint basing
    stand-alone bases.
                               concerns will be addressed through experience, but the OSD
Basing Directorate should monitor COLS levels as the joint basing process matures and
develop a plan for adjusting COLS so that they are based on feedback from joint base
personnel and warfighter requirements rather than setting COLS based on sometimes
higher or the highest standards within DoD.

Alternate Methods to Accomplish Support Did Not Meet COLS
Joint base personnel, at the two bases we visited, have developed alternate methods to
meet mission needs but do not satisfy COLS requirements. At JRM, specifically on


                                            5

AAFB, 36th Air Wing Mission Support Group personnel stated that in at least two
instances, the joint base personnel were required to report that COLS were not met, even
though the mission was met and support was provided that was equal to or better than
requirements.

The JBIG states that best business practices should be developed; however, simply
focusing on meeting COLS may limit innovative methods. For example, the Base
Support Vehicles Maintenance COLS required 90 percent of vehicles to be in operational
status, and when repairs are needed, required 60 percent of the vehicles to be returned
within 24 hours. The personnel we interviewed at AAFB stated that getting parts
delivered to Guam takes much longer than 24 hours for many vehicles, so they keep
additional vehicles on hand to loan when a 24-hour turnaround is not possible. Although
a loaned vehicle is acceptable to complete the mission, AAFB does not meet the COLS.

In addition, the Lodging COLS requires all facilities to meet the DoD Lodging Programs
Standards; however, the housing on AAFB does not meet the standards because many of
the facilities have shared bathrooms. AAFB is a forward-operating location. According
to 36th Wing Mission Support Group personnel, personnel at forward-operating locations
are generally housed in tents. Rather than requiring the forward-deployed personnel to
sleep in tents, personnel are housed in unoccupied base housing that does not meet COLS
but is at a higher standard than minimum support generally provided to forward-deployed
personnel. To meet the COLS, AAFB would require major renovations to base housing
or increased use of nearby hotels, both with added costs to DoD.

The OSD Basing Directorate officials agreed that both of these practices are acceptable
and that the COLS should be listed as met but admitted that communicating this to joint
basing officials is not easy because of the uniqueness of each case. The OSD Basing
Directorate encourages the exchange of ideas and best practices through conferences and
newsletters. However, until joint base personnel recognize that they can report that
COLS are met without performing the exact criteria listed to complete the COLS, joint
bases may not operate as efficiently as possible. The OSD Basing Directorate should
issue guidance to joint base commanders establishing that alternative ways to meet COLS
are encouraged and acceptable.

COLS Methodology Needs to Consider Urgency
Over the quarterly reporting period, joint base personnel encountered a number of
situations that, according to them, were more urgent than others but were not reflected
differently in the COLS methodology. For COLS that are stated as providing a certain
percentage of the entire workload, the impact of the necessary support is not considered
in the COLS. For example, a hypothetical COLS may be to respond to 90 percent of
building maintenance requests within 4 hours. In this case, the joint base personnel can
respond to 10 percent of requests outside of the 4-hour window and still meet COLS.
However, the COLS measurement does not consider that joint base personnel may have
an urgent mission-related request that requires a 4-hour response while other requests
may not need to be addressed immediately because they have little mission impact. At
JBPHH, the warfighters and joint base support personnel developed a semi-formal way to


                                            6

raise more urgent requests for support by directing the request to the JBPHH leaders, but
their methods and results had no bearing on the CPVF reports provided to the OSD
Basing Directorate. Implementing warfighter feedback on installation support will
mitigate some of these concerns, but DoD officials should continue to develop ways to
reflect more urgent requests for support within the COLS and reflect the results in the
CPVF data.

Warfighter Feedback Needed on Installation Support
OSD Basing Directorate officials received information only from the joint base personnel
on the performance of the joint base, and not from the warfighters that rely on the
                              support. Personnel at each of the joint bases file the CPVF
   . . . if joint base        quarterly report stating whether COLS are met or not met
   commanders are             and the cost of the support. The CPVF quarterly report is a
   assessed only on COLS      joint bases’ self-assessed report card provided to DoD
   performance, they may      leadership. Allowing the warfighter to provide feedback
   focus on meeting COLS      directly to OSD will allow DoD senior leaders to make
   at the expense of the      decisions on future COLS adjustments based on the
   mission.                   support received and not how well the joint bases are
                              performing the standards dictated to them by the COLS.
We interviewed many mission groups that were more interested in getting the support
needed for the warfighters than whether the joint base was performing support to COLS.

The COLS did not always align with the support required to complete the mission, which
is a core philosophy of the joint basing process. The personnel interviewed said that joint
bases have provided extra effort to support and complete the mission; however, if joint
base commanders are assessed only on COLS performance, they may focus on meeting
COLS at the expense of the mission.

The OSD Basing Directorate officials stated in June 2011 that a subjective narrative to be
completed by the warfighter and submitted with the CPVF report was being considered
and in development. The OSD Basing Directorate personnel stated that they hope to
have this feature available for the first quarter of the FY 2012 CPVF reporting period.
We commend the OSD Basing Directorate for implementing this function, and we are not
making a recommendation to address this concern.

Joint Base Commanders Did Not Always Implement Best
Practices Because of Service-Specific Policies
Joint base commanders could benefit from combining, merging, and choosing the best
policies and practices available. At implementation, the operating procedures and
civilian personnel on the joint base became subject to the policies of the lead Service. As
the joint bases matured, it became evident that policies of the other Services may be more
effective than the policies used by the lead Service. In some cases, inefficiencies
occurred because the Service members had to complete similar tasks done in compliance
with both the lead and supported Services’ policies. Additionally, the embedded




                                             7

members of the supported Service were subject to the oversight and inspection of their
Service but performed day-to-day operations in accordance with the policies of the lead
Service. Also, certifications and warrants of civilian personnel did not always transition
to the lead Service. Better cooperation between the Services, flexible policies, and
empowered joint base commanders should lead to a more efficient joint basing process.

Joint Base Processes and Policies Need to be Developed
DoD implemented joint basing to develop conditions for more consistent support and to
identify best business practices, but the two Navy-led joint bases we visited have made
little progress in this area. Although joint base personnel, who now have experience
using multiple Services’ processes, identified areas where one process was more efficient
than the other, only the policies of the lead Service were generally being used. These
areas included base access, timekeeping, accounting, and contract administration. To
maximize efficiencies, joint base commanders need to implement a hybrid of best
practices instead of using Service-specific policy. We did not identify specific practices
that could be improved during our audit but concluded that joint base personnel are in the
best position to identify these practices as joint basing matures. Joint base personnel can
also identify best practices based on the uniqueness of the conditions at each joint base.
Joint base personnel were willing to implement best practices when areas were not
covered by a Service-specific policy. OSD Basing Directorate officials should be aware
of restrictive Service-specific policies and consider allowing joint bases to deviate from
policies on a case-by-case basis so that joint bases can test and refine best practices.

Conflicts in Compliance Inspections and Oversight Policies at
Joint Bases
At joint bases, the supported component’s Service members are subject to policies and
procedures of both their Service and the joint bases, which sometimes created conflict
when the periodic Operational Readiness Inspections and Unit Compliance Inspections
were conducted. According to members of the Air Force stationed at JBPHH, the unit
received negative remarks during a recent inspection because they were not operating in
accordance with Air Force protocols and standards for initiating installation support.
Instead, the unit was operating in accordance with the policies in effect at JBPHH.
According to Air Force personnel, the inspection team did not consider this when
conducting their work. Additionally, during future inspections, units may receive
negative remarks through no fault of its own if the support provided by the joint base is
insufficient. The unit must maintain the ability to operate in compliance with Air Force
instructions if it deploys from JBPHH, so inspections still provide value to the
Department. However, Navy Installations Command officials, in conjunction with the
inspection and oversight community, should develop policy for conducting either
targeted or joint inspections at the joint bases to avoid evaluating joint base personnel on
different sets of standards.




                                              8

Operator Certifications and Contracting Officer Warrants Did Not
Always Transition to the Lead Service
The Navy was not properly employing the talent and skills of all heavy equipment
operators and contracting officers at the two Navy-led joint bases we visited. At joint
basing implementation, civilians providing installation support at the supported Service
transferred to the lead Service. Unfortunately, equipment operating certifications and
contractor officer warrants did not immediately transfer with the personnel because the
authorities and issuing procedures associated with certifications and warrants are
different for each Service. The Navy suffered setbacks in the short term because the
valuable skills and services performed by these personnel were not being fully used at the
joint bases. The JBIG did not cover retraining and recertifying these personnel in their
new positions during the joint base implementation. JRM and JBPHH officials stated
that they were aware of this concern and were willing to start the process of re-
certification but had not conducted any actions. For contracting officers, a contracting
officer at AAFB suggested the idea of implementing joint warrants at joint bases or using
some other form of cross-Service procedure, such as the Defense Acquisition Workforce
Improvement Act certification process. Joint base commanders should develop plans to
better employ the specialized personnel for installation support. Developing a transition
process for joint base contracting officers is particularly important at Navy-led joint bases
because of the regional structure of the Navy’s contracting functions (Naval Facilities
Engineering Commands and Fleet Industrial Supply Centers).

Reporting Joint Basing Results Should Be Consistent
and Complete
The joint base commanders can improve CVPF reports to DoD leaders to be more
consistent and complete. Joint base commanders provide a quarterly update on their joint
base to the OSD Basing Directorate known as the CPVF. DoD officials should
strengthen controls over the quarterly CPVF reports provided by joint bases to ensure
effective decisionmaking. Specifically, joint base CPVF reports were lacking because:
     the reports were compiled by individuals at the joint bases and were not subject to
        an independent assessment that compares reporting at all joint bases;
     COLS used phrases such as “responding within one business day” and “timeliness
        of reporting” that were interpreted differently by the personnel submitting the
        CPVF data, the mission components, and the OSD Basing Directorate;
     an unmet COLS did not necessarily mean that the mission suffered, and a met
        COLS did not always signify that support was sufficient; and
     JRM and JBPHH did not have specific instructions, set standards, or documented
        methodologies for determining the basis of their data compiled, which may lead
        to inconsistent reporting and dissimilar information as the joint bases mature and
        personnel change.

The OSD Basing Directorate is planning changes to the CPVF data collection starting in
FY 2012 that should increase the accuracy of reports. These changes include an
additional level of review of the CPVF data, a web-based reporting system, and the
addition of subjective narrative to be completed by the mission components supported by


                                             9

the joint bases. Additionally, the OSD Basing Directorate issued a CPVF handbook in
June 2011 that includes information gathered by the Office of the Secretary of Defense
on the CPVF submittal process and best practices. These changes should address the first
three weaknesses identified, but the OSD Basing Directorate should direct the joint base
commanders to develop methods to consistently report data as the joint basing process
matures and personnel transfer to and from the joint base. DoD leaders will be able to
make better decisions regarding the future of joint basing if the information they receive
from joint bases is more accurate and complete.

Conclusion
DoD officials have generally met the primary intent of the portion of the BRAC
recommendation to form JRM and JBPHH with minimal impact on mission capabilities.
However, opportunities still exist for DoD leaders to develop more efficient processes.
Although the joint bases we visited have combined functionally, the standards, policies,
and procedures need to evolve so that best practices can be implemented. To obtain the
anticipated benefits from the joint basing process, OSD Basing Directorate officials
should allow joint base commanders flexibility in policies and give them the authority to
develop and test innovative approaches to providing installation support. Additionally,
controls over reporting the joint base results need to improve so that DoD can make
informed decisions regarding the future of the joint basing process.

Recommendations, Management Comments, and Our
Response
Redirected Recommendation
We redirected Recommendation A.2. from the Commander, Naval Installations
Command, to the Deputy Chief of Naval Operations, Director, Shore Readiness, based on
comments received from the Director, Joint Guam Program Office and discussions with
the Navy.

A.1. We recommend that the Deputy Under Secretary of Defense for Installations
and Environment:

      a. Develop an action plan and timetable for revising Common Output Level
Standards based on joint base and mission component feedback that aligns
Common Output Level Standards to mission requirements and urgency of required
support.

       b. Issue guidance to joint base commanders stating DoD leadership
intentions regarding the ability to report Common Output Level Standards as met
through acceptable alternative methods of support.

      c. Issue supplemental Joint Basing Implementation Guidance regarding
contracting officer warrants or similar certifications for personnel at joint bases




                                           10 

that addresses the ability of joint bases to employ these personnel and ease the
transition of personnel to or from a joint base.

       d. Issue guidance to joint base commanders on supporting their Cost and
Performance Visibility Framework data that will strengthen the consistency of the
reports and facilitate the preparation of reports as personnel transition to or from a
joint base.

Management Comments Required
The Deputy Under Secretary of Defense for Installations and Environment did not
comment on a draft of this report. We request that he provide comments on
Recommendation A.1. in response to the final report.

A.2. We recommend that the Deputy Chief of Naval Operations, Director, Shore
Readiness:

        a. Provide instruction and establish parameters for Navy leaders on joint
bases regarding opportunities to deviate from established policies to develop more
efficient processes.

Joint Guam Program Office Comments
The Director, Joint Guam Program Office, provided comments for the Department of the
Navy Office of the Assistant Secretary of Energy, Installations, and Environment. The
Director disagreed that the Commander, Navy Installations Command, is responsible for
implementing the recommendation. He stated that the Deputy Chief of Naval Operations,
Director, Shore Readiness, will work with the other Services to review and refine existing
policies as part of the duties of the Senior Joint Base Working Group.

Our Response
We redirected this recommendation based on the Director’s comments and the planned
action is sufficient to satisfy the intent of this recommendation. No further comments are
required.

        b. Develop procedures for conducting oversight and inspections at the Navy-
led joint bases in conjunction with the supporting Services and applicable oversight
agencies to accomplish oversight that is mutually agreeable to all affected parties,
while tailoring the inspections to joint basing processes rather than the Service’s
instructions.

Joint Guam Program Office Comments
The Director, Joint Guam Program Office, provided comments for the Department of the
Navy Office of the Assistant Secretary for Energy, Installations, and Environment. The
Director disagreed and stated that an existing agreement signed by the Service Vice
Chiefs states how oversight and inspection functions are conducted on joint bases and




                                           11 

that any deviations should be documented in the Memorandum of Agreement at the joint
bases. According to the Director, the agreement states that the lead Service has oversight
authority for installation management functions and the supported Service maintains
oversight of noninstallation management functions. The Director stated that the Joint
Region Marianas Memorandum of Agreement does not identify any deviations from the
inter-Service agreement.

Our Response
The Director’s comments were partially responsive. At Joint Base Pearl Harbor–Hickam,
an inspection was conducted on a noninstallation management function. The Component
being reviewed was dependent on installation management provided by the joint base.
We agree that some guidance exists on oversight and inspections at joint bases. We
identified this specific issue because guidance either needs to be revised or supplemented
to address oversight when functions that remained part of the supported Service rely on
the installation management to complete the Service’s mission. Although this may
require coordination with other Service Chiefs, we addressed this recommendation to the
Navy because we visited only Navy-led joint bases during our audit. We request
additional comments on this recommendation in response to the final report by March 26,
2012.

        c. Develop standard procedures for reporting Cost and Performance
Visibility Framework data and documenting methodologies for calculating this
information at Navy-led joint bases.

Joint Guam Program Office Comments
The Director, Joint Guam Program Office, provided comments for the Department of the
Navy Office of the Assistant Secretary for Energy, Installations, and Environment. The
Director disagreed and stated that the Cost and Performance Visibility Framework is an
Office of the Secretary of Defense program and that office should issue guidance to all
joint bases on reporting methodologies and standards.

Our Response
The Director’s comments were partially responsive. Although the Cost and Performance
Visibility Framework is an Office of the Secretary of Defense program, each joint base
provides comments based on its own performance. Additionally, each joint base is
unique in the volume of support it is required to provide and in the methods chosen to
provide this support. The Office of the Secretary of Defense implemented the Cost and
Performance Visibility Tool reporting process to allow some flexibility regarding how
joint bases meet standards. Developing policy at the Navy-level will allow the Navy to
develop best practices and specific standards for reporting data based on the unique
processes at the Navy-led joint bases. We limited this recommendation to the Navy
because we visited only two Navy-led joint bases. If we visited joint bases led by other
Services and determined similar issues existed, we would have made similar
recommendations to the other Services. Therefore, we disagree with the Director that
guidance needs to be issued at the Office of the Secretary of Defense-level to be
effective. Additionally, documenting the methodology of how the Navy calculates and


                                            12 

reports their data to the Office of the Secretary of Defense is a Navy function. We
request additional comments on this recommendation in response to the final report by
March 26, 2012.




                                          13 

Finding B. Marine Corps Guam Relocation
Joint Basing Challenges
The Marine Corps personnel may experience problems unless steps are taken to involve
the appropriate officials in discussions before the transition to JRM. Specifically,
increased planning and coordination among the appropriate officials is required because:
     Marine Corps officials may experience similar problems as the Air Force
       experienced during the transition to JRM because the Marine Corps defines and
       categorizes installation support functions differently from the Navy.
     JRM officials must establish easily accessible locations for the Marine Corps to
       receive installation support, known as storefronts, but also limit excess storefronts
       when the Marine Corps can be supported by existing storefronts at JRM.
     JRM officials must determine how to increase Guam exchange capacity to
       provide the support needed to handle the increased demands of incoming Marines,
       while continuing to distribute exchange profits in an equitable manner.

As a result, Marine Corps personnel readiness, resources, and quality of life may be
affected during their relocation to Guam and transition to JRM.

Improving the Marine Corps Transition to JRM
The Marine Corps may experience problems during the transition to JRM because
increased planning and coordination are needed in key transition areas. A Marine Corps
Forces – Pacific official expressed concerns with several joint basing areas that may
complicate the transition of the Marine Corps into JRM. These concerns include tracking
funds as they transition from the Marine Corps to JRM, maintaining equity with the other
Services on Guam, and distributing Marine Corps Exchange profits.

The Marine Corps Forces – Pacific official also identified areas that we determined are
being adequately addressed by DoD leaders or are addressed by current joint basing
guidance. Among the concerns was the Marine Corps’ ability to hire required personnel
at JRM, the Marine Corps cost-sharing allocation during its transition to JRM, and the
development of policies and procedures to incorporate the Marine Corps into the JRM
organizational structure. Additionally, the Marine Corps Forces – Pacific official was
concerned that the Marine Corps will not benefit from any future efficiencies identified
through its involvement with JRM. The official is correct that the Navy will retain future
efficiencies at JRM based on current joint basing principles. The OSD Basing
Directorate determined that lead components will retain any efficiencies resulting from
joint basing because they are also at risk of using other resources for joint basing if
inefficiencies occur. Although the OSD Basing Directorate’s stance is not codified in
JBIG or supplemental guidance, the OSD Basing Directorate agreed that guidance should
be issued. Because JRM is already established, the budgeting and transfer process the
Marine Corps will experience during its transition to JRM will be more accurate than the
original joint basing budgeting process. Therefore, we do not address this concern in our
report.




                                            14 

Funds Tracking and Resource Transfer Challenges
The Marine Corps financial personnel will face challenges tracking funds and
transferring resources to JRM due to the lack of continuity between the Services’
structure and financial systems. Financial personnel at both JRM and JBPHH stated that
the transfer of functions and funds was a challenge during the joint basing
implementation. A Marine Corps Forces – Pacific official had similar concerns regarding
the categorization of installation support by the Navy, Marine Corps, and joint bases.
JRM and Marine Corps officials will need to make decisions regarding how to align and
properly resource transferring functions because the Marine Corps installation support
functions do not align directly to existing JRM functions. During the transfer from the
Air Force to the Navy at JBPHH and JRM, officials determined that many Air Force
installation support functions had to be separated into subfunctions before transferring, so
that they correctly aligned with the existing Navy installation support functions.

Air Force officials had trouble efficiently tracking funds because of procedural,
structural, and cultural differences between the Services. JRM and JBPHH personnel
were unable to track whether specific functions were part of the transfer, what funds were
transferred to resource that function, whether the funds were adequately processed
through the Navy’s accounting system, and whether the funds were provided to the joint
base to provide that function or retained at a regional level within the Navy. At JRM, the
process was further complicated because JRM funds then had to be allotted to the specific
components within the region. Navy and Air Force personnel stated that they were
eventually able to track the funds with increased efforts, but establishing better
communication and accounting procedures before the transition to JRM would have been
beneficial to the process. Because JRM now operates a fully-functional financial
directorate, the appropriate JRM and Marine Corps financial personnel should be
involved throughout the transition so that the Marine Corps transition to JRM is
accomplished effectively.

Efficient Access to Marine Corps Installation Support at JRM
The Marine Corps will require storefronts for installation support at JRM, but steps
should be taken to determine the necessity of potential storefronts. The Marine Corps
officials must coordinate with personnel from AAFB and Naval Base Guam to identify
what services can be shared as many of the services required by the Marine Corps are
already present on Guam. However, in some cases, even though storefronts already exist
that could adequately support the Marine Corps needs, savings will be negated by
increased travel time or lack of convenience. To maximize efficiencies, Marine Corps
personnel should use existing storefronts at other DoD locations on Guam when it is most
efficient.

Through proper planning, the Marine Corps has opportunities to decrease the amount of
overhead and new construction required by the relocation to Guam. Marine Corps
personnel should ensure that personnel transferring to JRM can best perform their duties.
Additionally, Marine Corps personnel should use existing Navy and Air Force facilities
for installation support where the opportunity exists. However, Marine Corps personnel
should consider the most economical way to obtain commonly required support at Future


                                            15 

Marine Corps Base Guam. Although the three bases will be in relatively close proximity,
traveling between the bases for commonly required support will result in inefficiencies at
JRM. The figure shows approximate travel times between the main DoD locations on
Guam.

          Figure. Approximate Peak Travel Times, by Car, Using Existing 

                              Roadways on Guam 





JRM, AAFB, Naval Base Guam, and Marine Corps officials should continue to
coordinate requirements so that efficiencies can be identified. When Marine Corps
officials require a storefront on Marine Corps Base Guam, they should provide adequate
resources to JRM for the storefront. Marine Corps and JRM officials should develop
procedures for maintaining, increasing, or decreasing storefronts by revising an existing
agreement or developing new procedures to ensure adequate resourcing and provision of
installation support. Additionally, JRM and the Marine Corps should determine whether
transferring personnel should be positioned at JRM headquarters or at Marine Corps Base
Guam to best provide installation support.




                                           16 

Equitable Exchange Services Profits Distribution
The future Marine Corps Exchange will be disproportionately funding JRM morale,
welfare, and recreation activities under the current JBIG. If JRM and Marine Corps
officials decide that a Marine Corps Exchange should be built on Guam to provide the
Marine Corps with exchange support, they should develop a plan to ensure equitable
treatment of Marine Corps exchange profits at JRM. According to the Director, JRM
Morale, Welfare, and Recreation Directorate, at traditional Marine Corps bases, the
Marine Corps retains most exchange profits at the local level while the other Services
retain a portion at the local level and a portion at headquarters levels. After the Marine
Corps Exchange retains some earnings for future expansion and improvement, the
commander at a Marine Corps base has all remaining profits available to spend on quality
of life programs for Marines at that location. After other Services’ exchanges retain
profits for expansion and improvements, approximately 48 percent of profits go to the
base commanders to use at their discretion and 52 percent of profits go to the specific
Services’ headquarters for use across the Service. Without specific planning, the Marine
Corps will not have the additional benefits provided on a Service-wide level by the other
Services.

Whether the Marine Corps keeps exchange profits or profits are provided to the Navy in
accordance with the JBIG, Service members located on JRM will experience some
inequity regarding the benefits of exchange profits. If the Marine Corps retains all of the
exchange profits, then Marines at JRM will not only benefit from the Marine Corps
Exchange profits, but will also benefit by the support provided by JRM through the
profits of the other Service’s exchanges. If JRM receives all of the Marine Corps
Exchange profits, then Air Force and Navy Service members will receive their
proportionate share of the increased JRM funds plus extra support from their Service’s
headquarters. The Marines would receive only their proportionate funds through JRM
due to the lack of headquarters-level programs funded through their exchanges. The
JBIG exempted Marine Corps Community Service installation support functions from
combining at Joint Base Myer – Henderson Hall; therefore, no joint bases presently
provide community support to the Marine Corps or receive Marine Corps Exchange
funds.

Although the Air Force Exchange profits are currently transferred to the Navy at JRM,
the effects of this transfer are lessened because at other joint bases, the Air Force receives
profits from the Navy Exchanges. The Navy should develop a plan for the equitable use
of exchange profits to maintain equality among the Services or allow the Marine Corps to
retain a portion of the exchange profits on JRM for its own use, or the Navy should reach
an agreement with the Marine Corps regarding how the additional Marine Corps funds
will be used by JRM.

The exchange profits are only a portion of morale, welfare, and recreation funds available
at JRM; however, any decrease in funds will have a negative impact on services that JRM
provides. If JRM and Marine Corps officials reach an agreement on dividing exchange
profits, then quality of life functions for the Marines can be preserved and JRM can
benefit from having a portion of the Marine Corps Exchange funds for the JRM mission.


                                             17 

Conclusion
The Marine Corps and JRM officials will need to closely coordinate decisions during the
Marine Corps relocation to Guam. Additionally, the Navy may need to develop plans
regarding the use of exchange profits at JRM to maintain a standard level of service
across all Services located at JRM. Implementing our recommendations should assist
with the Marine Corps relocation to Guam and help DoD achieve the goal of developing
more efficient operations through joint basing.

Management Comments on the Finding and Our
Response
The Office of the Secretary of Defense for Personnel and Readiness Principal Director
for Military Community and Family Policy commented that the Marine Corps Exchange
does not currently operate in Guam. Therefore, he disagreed with our assessment that the
Marine Corps Exchange would be disproportionately funding JRM morale, welfare, and
recreation activities. He also stated that the Joint Region Marianas Memorandum of
Agreement addresses how the profits of the existing exchanges will be distributed.

Our Response
Although the Marine Corps Exchange does not currently operate on Guam, Marine Corps
officials indicated that one may be established as part of the relocation to Guam. We
state in the Finding that the decision was not made on how to provide exchange support
to the relocating Marines. Our discussion on dividing the exchange profits is contingent
on a Marine Corps Exchange being built on Guam. During the implementation of the
joint basing process, no existing Marine Corps Exchanges were affected; therefore, no
precedent was established for distributing Marine Corps Exchange profits at joint bases.
We make our recommendation based on any potential profits that could result from a
Marine Corps Exchange in Guam.

Recommendations, Management Comments, and Our
Response
Revised Recommendation
We clarified Recommendation B.1 to note that it only applies to any future Guam Marine
Corps Exchange profits. If a Marine Corps Exchange is not established on Guam as part
of the Marine Corps relocation, then this recommendation is not applicable.

B.1. We recommend that the Commander, Navy Installations Command, develop a
plan regarding the treatment of any potential Marine Corps Exchange profits that
maintains an equitable use of the profits across the Services located at Joint Region
Marianas.

Joint Guam Program Office Comments
The Director, Joint Guam Program Office, provided comments for the Department of the
Navy Office of the Assistant Secretary for Energy, Installations, and Environment. The


                                          18 

Director did not agree and stated that the decision has not been made regarding whether a
Marine Corps Exchange will operate at Joint Region Marianas; therefore, discussion of
profits is premature.

Our Response
The Director’s comments were not responsive. We clarified this recommendation so that
it pertains to future Marine Corps Exchange profits. We require action on this
recommendation only if a Marine Corps Exchange is constructed on Guam to support the
relocating Marines. We realize that the decision has not been made regarding the Marine
Corps Exchange on Guam, however, if an exchange is constructed a plan is needed. We
request additional comments on this recommendation in response to the final report by
March 26, 2012.

Office of the Secretary of Defense for Personnel and Readiness
Comments
Although not required to comment, the Principal Director for Military Community and
Family Policy disagreed and stated that the Marine Corps does not operate an exchange
on Guam and that the existing Army and Air Force Exchange and Navy Exchange
dividend distribution is addressed by current joint basing guidance and in the Joint
Region Marianas Memorandum of Agreement.

Our Response
One option to meet the increased requirement on Guam resulting from the Marine Corps
relocation is to build a Marine Corps Exchange. Our discussion in the Finding and this
recommendation are based on the possibility of constructing a Marine Corps Exchange.
If Joint Region Marianas and Marine Corps officials determine that existing exchanges
can meet the needs after the Marine Corps transition, then this recommendation is not
applicable.

B.2. We recommend that the Commander, Joint Region Marianas:

       a. Task the Joint Region Marianas Comptroller and other appropriate
personnel with assisting the Marine Corps during the relocation to Guam regarding
Joint Region Marianas operations, financial accounting systems, and tracking of
funds during the transition to Joint Region Marianas.

Joint Guam Program Office Comments
The Director, Joint Guam Program Office, provided comments for the Department of the
Navy Office of the Assistant Secretary for Energy, Installations, and Environment. The
Director agreed and stated that the Concept of Partnership between the Navy and Marines
specifies how funding will be handled and that future determinations will be made by the
Navy and Marines regarding the transition and respective tracking of funds.




                                           19 

Our Response
The Director’s comments were responsive, and no additional comments are required.

       b. Develop a policy or agreement specific to the Marine Corps relocation to
Guam that describes how Joint Region Marianas will provide installation support to
the Marine Corps and provide suggestions for necessary storefronts that the Marine
Corps should consider during the construction of Marine Corps Base Guam.
Additionally, the policy should suggest which positions should be at Joint Region
Marianas Headquarters instead of being located on Marine Corps Base Guam.

Joint Guam Program Office Comments
The Director, Joint Guam Program Office, provided comments for the Department of the
Navy Office of the Assistant Secretary for Energy, Installations, and Environment. He
agreed and stated that the Navy and Marine Corps have developed functional working
groups designed to develop optimal organization and staffing at the installation and
regional levels. He also stated that the groups are focusing on support required to be in
place before the Marine Corps relocates. According to the Director, progress is being
tracked through detailed matrices and communicated regularly.

Our Response
The Director’s comments were responsive, and no additional comments are required.




                                           20 

Appendix A. Scope and Methodology
We conducted this performance audit from January 2011 through November 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We assessed the successes and shortfalls of the joint basing process, areas where
guidance needs to be revised or issued, and other challenges during the joint basing
implementation process. At JRM, we assessed specific concerns identified by the Marine
Corps regarding their relocation to Guam and transition as part of JRM. The Naval Audit
Service was also conducting a review at JRM. We met with them and determined that we
would not assess the structure and supervisory control at JRM because it was part of their
review.

We reviewed the 2005 BRAC recommendation number 146, the JBIG, and supplemental
guidance. We reviewed summary CPVF information from the first required reporting
periods through the 4th quarter of FY 2010. We limited detailed COLS analysis during
our review and instead focused on COLS discussed by joint base personnel and trends in
the CPVF data. We visited the Office of the Deputy Under Secretary of Defense for
Installations and Environment Basing Directorate; Commander, Navy Installations
Command; Headquarters, Marine Corps; Pacific Command; the Joint Guam Program
Office; Marine Corps Forces – Pacific; Pacific Air Forces; JRM; and JBPHH. We
interviewed major tenants; manpower; resources; financial; morale, welfare, and
recreation; and executive personnel at JRM and JBPHH.

Use of Computer-Processed Data
We did not use or rely on computer-processed data.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the Department of
Defense Inspector General, and the Naval Audit Service have issued four reports
discussing joint basing or construction related to the Guam relocation. Unrestricted GAO
reports can be accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG
reports can be accessed at http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-11-206, “The Navy Needs Better Documentation to Support Its
Proposed Military Treatment Facilities on Guam,” April 5, 2011

GAO Report No. GAO-09-336, “DoD Needs to Periodically Review Support Standards
and Costs at Joint Bases and Better Inform Congress of Facility Sustainment Funding
Uses,” March 30, 2009



                                           21 

DoD IG
DoD IG Report No. D-2011-075, “DoD Officials Need to Improve Reporting of
Obligations and Expenditures for the Guam Realignment,” June 17, 2011

Navy
Naval Audit Service Report No. N2011-0029, “Verification of Operational Capabilities
and Internal Controls and Joint Region Marianas,” April 27, 2011




                                         22 

Appendix B. Joint Bases
Phase I Joint Bases* (Established on October 1, 2009)
Joint Base Andrews–Naval Air Facility Washington
       Andrews Air Force Base and Naval Air Facility Washington

Joint Base Little Creek–Fort Story
       Naval Expeditionary Base Little Creek and Fort Story

Joint Base Myer–Henderson Hall
       Fort Myer and Henderson Hall

Joint Base McGuire–Dix–Lakehurst
       McGuire Air Force Base, Fort Dix, and Naval Air Engineering Station Lakehurst

Joint Region Marianas
       Naval Base Guam and Andersen Air Force Base

Phase II Joint Bases* (Established on October 1, 2010)
Joint Base Anacostia–Bolling
       Naval Station Anacostia and Bolling Air Force Base

Joint Base Charleston
       Charleston Air Force Base and Naval Weapons Station Charleston

Joint Base Elmendorf–Richardson
       Elmendorf Air Force Base and Fort Richardson

Joint Base Langley–Eustis
       Langley Air Force Base and Fort Eustis

Joint Base Lewis–McChord
       Fort Lewis and McChord Air Force Base

Joint Base Pearl Harbor–Hickam
       Naval Station Pearl Harbor and Hickam Air Force Base

Joint Base San Antonio
       Lackland Air Force Base, Fort Sam Houston, and Randolph Air Force Base




*
    Lead installation listed first.


                                          23 

Appendix C. Installation Support Functions
Joint basing categorized installation support into 49 functions. In limited cases, specific
joint bases are exempt from providing all 49 installation support functions because of
BRAC recommendation number 146 or decisions made by DoD leadership.

1. Airfield Operations                              25. Installation Physical Security
2.	 Base Support Vehicles and                            Protection and Services
     Equipment                                      26. Installation Public Affairs
3. Child and Youth Programs                         27. Installation Safety
4. Civilian Personnel Services                      28. Laundry and Dry Cleaning
5. Command Support                                  29. Legal Support
6. Custodial Services                               30. Lodging
7. Emergency Management                             31. Management Analysis
8. Environmental Compliance                         32. Military Personnel Services
9. Environmental Conservation                       33. Morale, Welfare, and Recreation
10. Environmental Restoration                       34. Nonappropriated Funds/Exchanges
11. Facilities Demolition                           35. Pavement Clearance
12. Facilities New Footprint                        36. Pest Control
13. Facilities Sustainment                          37. Pollution Prevention
14. Facilities Restoration and                      38. Port Services
     Modernization                                  39. Procurement Operations
15. Family Housing Services                         40. Readiness Engineering
16. Financial Management                            41. Real Property Leases
17. Fire Protection and Emergency                   42. Real Property Management/
     Services                                            Engineering Services
18. Food Services                                   43. Refuse Collection and Disposal
19. Grounds Maintenance                             44. Small Arms Range Management
20. Information Technology Services                 45. Supply, Storage, and Distribution
     Management                                     46. Supply, Storage, and Distribution
21. Installation Chaplain Ministries                     (Nonmunitions) or Logistics
22. Installation History and Museums                     Services
23. Installation Law Enforcement                    47. Unaccompanied Personnel Housing
     Operations                                          Services
24. Installation Movement                           48. Utilities
                                                    49. Warfighter and Family Services




                                             24 

Joint Guam Program Office Comments


                                           Final Report
                                            Reference




                                         Redirected.




                Click to add JPEG file




                               25
Click to add JPEG file




               26
Click to add JPEG file




               27
Office of the Under Secretary of Defense for Personnel and
Readiness Comments




                  Click to add JPEG file




                                 28
                           Final Report 

                            Reference





                         Revised.




Click to add JPEG file




               29
Click to add JPEG file




               30
